PROOF OF SERVICE
No. 19-140
Jason Edward Rheinstein
Petitioner
v.
Attorney Grievance Comm’n. of Maryland,
Respondent

I hereby declare and affirm that:
On this 30th day of October, 2020, a copy of the Petition for Rehearing
and the Motion for Leave to File Petition for Rehearing Out of Time were

served on all parties required to be served, by sending, via first class
mail, postage prepaid, a true and correct copy of the same, to the
following person:
Michele J. McDonald
Assistant Attorney General
Office of the Maryland Attorney General
200 St. Paul Place, 20th Floor
Baltimore, MD 21202
Attorney for Respondent

and by emailing a copy of same to mmcdonald@oag.state.m»d.us.

J^so^-Edward Rheinstein
Petitioner

